No. ________

IN THE

Supreme Court of the United States

d
NEKEBWE SUPERVILLE ,

Petitioner,

—v.—

UNITED STATES

OF

AMERICA ,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

VINOO P. VARGHESE
Counsel of Record
VARGHESE & ASSOCIATES , P.C.
2 Wall Street
New York, New York 10005
(212) 430-6469
info@vargheselaw.com
Attorneys for Petitioner

i
QUESTION PRESENTED
In Padilla v. Kentucky, 559 U.S. 356 (2010),
the Court held that when the immigration
consequence of pleading guilty to a crime is
“truly clear,” an attorney’s duty to correctly
inform the defendant of that consequence is
“equally clear.” Id. at 369. Thus, an attorney’s
failure to advise a defendant that deportation is
mandatory upon a plea to an aggravated felony is
constitutionally ineffective assistance under
Strickland v. Washington, 466 U.S. 668 (1984).
Circuit Courts have split on whether an
attorney’s affirmative misadvice about the
mandatory nature of deportation upon pleading
guilty to an aggravated felony can be cured by
general warnings from a judge or the
prosecution.
The question presented in this petition is the
following: When conducting an analysis under 28
U.S.C. § 2255(f) and Strickland v. Washington,
will equivocal warnings given by a judge
pursuant to Fed. R. Crim. P. 11 and/or
boilerplate language contained in a plea
agreement cure an attorney’s affirmative
misadvice to a defendant about the mandatory
nature of deportation upon a plea to an
aggravated felony.

ii
LIST OF PARTIES
All parties appear in the caption of the case on
the cover page.
RELATED CASES
Superville v. United States, No. 13 CR 302, 17
CV 5856, United States District Court for the
Eastern District of New York. Memorandum and
Order entered February 27, 2018.
Superville v. United States, No. 18-680-PR,
United States Court of Appeals for the Second
Circuit. Judgment entered May 9, 2019.

iii
TABLE OF CONTENTS
PAGE

QUESTION PRESENTED . . . . . . . . . . . . . . . . .

i

LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . .

ii

RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . .

ii

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . .

v

OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . .

1

BASIS FOR JURISDICTION . . . . . . . . . . . . . .

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS CITED . . . . . . . . . . . . . . . . . . .

2

STATEMENT OF THE CASE . . . . . . . . . . . . . .

3

REASONS FOR GRANTING THE
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

6

I. The Court Should Grant Review to
Resolve a Circuit Split about
Whether Rule 11 Warnings from a
Judge Or Language in a Plea
Agreement Can Cure an Attorney’s
Affirmative Misadvice about the
Mandatory Nature of Deportation
Upon a Plea to an Aggravated
Felony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

6

iv
PAGE

A. Courts are divided about whether
Rule 11 warnings from a judge
and/or language in a plea agreement can cure an attorney’s
objectively unreasonable advice
about the deportation consequences of pleading guilty to
an aggravated felony . . . . . . . . . . . . .

6

B. Allowing warnings from a judge or
prosecutor to substitute for the
effective assistance advice of
counsel is not compatible with the
Constitution
or
this
Court’s
precedent . . . . . . . . . . . . . . . . . . . . . . . . .

10

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

12

APPENDIX TABLE OF CONTENTS
Appendix A: Memorandum and Order of
the U.S. District Court for the
Eastern
District
of
New
York,
dated February 27, 2018 . . . . . . . . . . . . . . . .

1a

Appendix B: Summary Order of the U.S.
Court of Appeals for the Second Circuit,
dated May 9, 2019 . . . . . . . . . . . . . . . . . . . . . .

25a

Appendix C: Order of the U.S. Court of
Appeals
for
the
Second
Circuit,
dated August 15, 2019 . . . . . . . . . . . . . . . . . .

33a

v
TABLE OF AUTHORITIES
PAGE(S)

Cases
Dat v. United States,
920 F.3d 1192 (8th Cir. 2019) . . . . . . . . . . . . . . . . 8
Hill v. Lockhart,
474 U.S. 52 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . 10
INS v. St. Cyr,
533 U.S. 289 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Lafler v. Cooper,
566 U.S. 156 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Lee v. United States,
137 S.Ct. 1958 (2017) . . . . . . . . . . . . . . . . . . . . . . . 10
McMann v. Richardson,
397 U.S. 759 (1970) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Padilla v. Kentucky,
559 U.S. 356 (2010) . . . . . . . . . . . . . . . . . . . . . . . i, 6
Shu Feng Xia v. United States,
2015 WL 4486233
(S.D.N.Y. July 20, 2015) . . . . . . . . . . . . . . . . . . . . 11
Strickland v. Washington,
466 U.S. 668 (1984) . . . . . . . . . . . . . . . . . . . . . . . i, 10
Superville v. United States,
284 F. Supp. 3d 364 (E.D.N.Y. 2018) . . . . . . . . . 1
Superville v. United States,
771 F. App’x 28 (2d Cir. 2019) . . . . . . . . . . . . . . . 1
United States v. Akinsade,
686 F.3d 248 (4th Cir. 2012) . . . . . . . . . . . . . . . . . 9

vi
PAGE(S)

United States v. Fazio,
795 F.3d 421 (3d Cir. 2015) . . . . . . . . . . . . . . . 7, 8
United States v. Murillo,
927 F.3d 808 (4th Cir. 2019) . . . . . . . . . . . . . . . . . 9
United States v. Rodriguez-Vega,
797 F.3d 781 (9th Cir. 2015) . . . . . . . . . . . . . . . . . 9
Rules
Fed. R. Crim. P., Rule 11 . . . . . . . . . . . . . . . . . passim
Statutes
8 U.S.C. § 1227(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
8 U.S.C. § 1229b . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
8 U.S.C. § 1229b(a)(3) . . . . . . . . . . . . . . . . . . . . . . . . . 10
18 U.S.C. § 1956(a)(1)(B)(i) . . . . . . . . . . . . . . . . . . . . . 4
18 U.S.C. § 1956(h) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
21 U.S.C. § 841(b)(1)(A)(vii) . . . . . . . . . . . . . . . . . . . . 4
21 U.S.C. § 846 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2255 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 5, 7
28 U.S.C. § 2255(f) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Constitutional Provisions
U.S. Const. amend VI . . . . . . . . . . . . . . . . . . . . . . . 2, 10

vii
PAGE(S)

Other Authorities
R. McWhirter, ABA, The Criminal Lawyer’s
Guide
to
Immigration
Law
146
(2d ed. 2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

1
OPINIONS BELOW
The Memorandum and Order denying the 28
U.S.C. § 2255 petition, Superville v. United
States, 284 F. Supp. 3d 364 (E.D.N.Y. 2018), was
issued on February 27, 2018, and is reproduced
as Appendix A.
The unpublished Summary Order of the United
States Court of Appeals for the Second Circuit,
Superville v. United States, 771 F. App’x 28 (2d
Cir. 2019), was issued on May 9, 2019, and is
reproduced as Appendix B.
The order denying a panel rehearing or
rehearing en banc was issued on August 15,
2019, and is reproduced as Appendix C.
BASIS FOR JURISDICTION
The judgment of the Court of Appeals was
entered on May 9, 2019. A timely petition for
rehearing was denied on August 15, 2019. The
jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS CITED
The Constitution of the United States, Amendment VI, requires:
In all criminal prosecutions, the accused
shall enjoy the right . . . to have the
Assistance of Counsel for his defence.
Rule 11 of the Federal Rules of Criminal
Procedure specifies:
(b)(1) Advising and Questioning the
Defendant. Before the court accepts a
plea of guilty . . . the court must address
the defendant personally in open court.
During this address, the court must
inform the defendant of, and determine
that the defendant understands . . .
(O) that, if convicted, a defendant who
is not a United States citizen may
be removed from the United States,
denied citizen-ship, and denied
admission to the United States in
the future.

3
STATEMENT OF THE CASE
Petitioner Nekebwe Superville is a 36-year-old
United States permanent resident and citizen of
Trinidad and Tobago who has lived in the United
States with his mother since he was five years
old. His father died when he was an infant, and
he has a sister who lives in Florida.
Mr.
Superville is engaged to an American citizen
with whom he has two daughters, ages nine and
five. In May 2013, Petitioner was arrested for
participating in a drug trafficking organization.
Two days after his arrest, while Petitioner was
incarcerated, due to their concerns about
immigration consequences, Petitioner’s mother
retained
private
counsel
(“counsel”)
who
advertised experience in criminal law and
immigration issues. Counsel advised Petitioner’s
mother that Petitioner “should be ok,” and did
not need to worry about being deported if he kept
“a low profile.” Appendix A at 6a.
Counsel believed that Petitioner’s case was
“dead” and the evidence against him was
overwhelming.
Appendix A at 9a.
He then
advised Petitioner to plead guilty and cooperate
with the government to minimize any term of
incarceration.
Later, counsel presented Petitioner with a
cooperation agreement which noted pleading
guilty “may have consequences with respect to
the defendant’s immigration status if the
defendant is not a citizen of the United States,”
and that “the defendant wants to plead guilty
regardless of any immigration consequences,

4
even if the consequence is the defendant’s
automatic removal from the United States.”
Appendix A at 10a (emphasis added).
In February 2014, and pursuant to that
agreement, Petitioner pleaded guilty to one count
of conspiring to distribute 1,000 kilograms or
more of marijuana, in violation of 21 U.S.C. §§
846 and 841(b)(1)(A)(vii), and one count of
conspiring to transfer and deliver United States
currency involving the proceeds of narcotics
trafficking, in violation of 18 U.S.C. §§ 1956(h)
and 1956(a)(1)(B)(i).
Counsel admitted that he “never told
[Petitioner] he would be deported as a result of
the plea. I told him he could be deported as a
result of the plea. And I say that because nobody
can predict any such outcome.” Appendix A at 7a
(emphases added).
Yet, both offenses that
Petitioner pleaded guilty to were aggravated
felonies, and just as in Padilla, these would
clearly lead to mandatory deportation.
At the change of plea hearing, the magistrate
judge advised Petitioner that “if you are not a
United States Citizen, a conviction for the
charges that you will be pleading guilty to
carries heavy immigration consequences,” and
that “as a result of pleading guilty, you could be
subject to removal from the United States . . . .”
Appendix A at 11a (emphasis added).
Several months later, in October 2014, at the
start of the sentencing hearing, the district court
judge asked Petitioner “[d]o you understand that
your plea in this case may result in your
deportation?”
Appendix A at 12a (emphasis
added). Petitioner was then sentenced to a three-

5
year term of probation. In July 2017, Petitioner
learned counsel had incorrectly advised him
when immigration authorities detained him and
placed him into removal proceedings.
Petitioner promptly filed a Motion to Vacate,
Set Aside, or Correct Sentence pursuant to 28
U.S.C. § 2255.
After a hearing at which
Petitioner, his mother, and counsel testified, the
district court concluded that Petitioner’s motion
was untimely and that he could not claim any
prejudice under Strickland.
Both of those
findings were based on the language in the
cooperation agreement and the warnings given
by the judges in court.
The Second Circuit affirmed.
Noting that
Petitioner “received at least three warnings
about his plea’s immigration consequences” in
the cooperation agreement and from both judges,
the court agreed that Petitioner should have
known he was subject to mandatory deportation
no later than when he was sentenced, and could
not show that his counsel’s incorrect advice
factored into his decision to plead guilty.
Appendix B at 30a.
The Second Circuit denied a Petition for a
Panel Rehearing or Rehearing En Banc on
August 15, 2019.

6
REASONS FOR GRANTING THE PETITION
I.

The Court Should Grant Review to Resolve
a Circuit Split about Whether Rule 11
Warnings from a Judge Or Language in a
Plea Agreement Can Cure an Attorney’s
Affirmative Misadvice about the Mandatory
Nature of Deportation Upon a Plea to an
Aggravated Felony

This Court’s decision in Padilla v. Kentucky
relied on the first prong of the Strickland
analysis—holding
that it was
objectively
unreasonable for an attorney to give incorrect
advice about the immigration consequences of a
guilty plea if that consequence was “truly clear.”
Circuit Courts have split on whether an
attorney’s affirmative misadvice about the
mandatory nature of deportation upon pleading
guilty to an aggravated felony can be cured by
general warnings from a judge or the
prosecution.
Those courts that allow such
warnings and language to overcome any
prejudice from an attorney’s constitutionally
deficient advice are undermining the very
meaning of the right to effective assistance of
counsel as described by this Court in Padilla.
A. Courts are divided about whether Rule 11
warnings from a judge and/or language in
a plea agreement can cure an attorney’s
objectively unreasonable advice about the
deportation consequences of pleading
guilty to an aggravated felony
The Second Circuit and district court both held
that even where a defendant is affirmatively

7
misled by his counsel about the immigration
consequences of a plea, the boilerplate language
in plea agreements and equivocal Rule 11
warnings given by judges are sufficient to cure
any error.
Specifically, the Second Circuit
agreed with the district court that the § 2255
motion was untimely because Petitioner, at his
plea and sentencing hearings, received the
standard warnings under Fed. R. Crim. P. 11,
such that “a reasonably diligent person would
have discovered that he was subject to
presumptively mandatory deportation” at that
time. Appendix B at 31a. The court also agreed
that even if counsel had provided objectively
unreasonable
advice
about
deportation,
Petitioner
could
not
establish
prejudice
particularly in light of the three other warnings
[he] received.” Id. at *3.
The Third Circuit has also found that a
defendant who pleaded guilty to an aggravated
felony could not show any prejudice where his
attorney only advised him that there “could be
immigration consequences.”
United States v.
Fazio, 795 F.3d 421, 427 (3d Cir. 2015). While
acknowledging that Padilla entitled Fazio to be
advised that his conviction made him subject to
automatic removal, his attorney’s incorrect
advice did not matter because “[t]his risk was
made clear in both his plea agreement and
during the plea colloquy. The plea agreement
stated that Fazio wanted ‘to plead guilty
regardless of any immigration consequences that
his plea may entail, even if the consequence is
his automatic removal from the United States.’”
Id. at 428. During the plea proceeding, Fazio
confirmed that he wanted to plead guilty

8
“regardless of any immigration consequences
that [his] plea of guilty may entail, even if the
consequence [was] [his] automatic removal from
the United States[.]” Id.
Nevertheless, shortly before the Second Circuit
issued its decision in this case, the Eighth
Circuit decided Dat v. United States, 920 F.3d
1192 (8th Cir. 2019). In remanding for further
proceedings, the Eighth Circuit explained the
following:
[Dat]
acknowledged
in
his
plea
agreement that “there are or may be
collateral consequences to any conviction
to
include
but
not
limited
to
immigration.” In his Petition to Enter a
Plea of Guilty, he acknowledged that a
guilty plea in “most federal felony cases”
results in permanent removal. And at his
change-of-plea hearing, he affirmed he
was aware his conviction “could affect”
his
immigration
status
and
had
discussed the matter with his attorney.
Id. at 1195. The Eighth Circuit, however, found
that “his counsel’s alleged misadvice specifically
undermined these equivocal warnings. They
informed Dat of a general possibility of
immigration consequences. They d[id] not
necessarily contradict or correct his counsel’s
alleged misadvice he would not suffer those
consequences in his case.” Id.
Moreover, the Fourth Circuit has held that
“giving dispositive weight to boilerplate language
from a plea agreement is at odds with
Strickland’s fact-dependent prejudice analysis,”
and that

9
plea agreement language and sworn
statements must be considered in their
context: When a defendant has been
told–multiple times–that immigration
consequences are not mandated but
merely a “possibility,” a willingness “to
plead
guilty
regardless
of
any
immigration consequences” does not
mean that the defendant was willing to
plead guilty if doing so meant mandatory
deportation.
United States v. Murillo, 927 F.3d 808, 816-17
(4th Cir. 2019); United States v. Akinsade, 686
F.3d 248, 254 (4th Cir. 2012) (“General and
equivocal” Rule 11 warnings do not cure
counsel’s affirmative misadvice because they
don’t properly inform defendant that the
consequence of pleading guilty was “mandatory
deportation”).
And the Ninth Circuit has also found that,
where an attorney fails to correctly inform a
defendant that deportation is “virtually certain”
after pleading guilty to an aggravated felony,
Rule 11 warnings and statements in a plea
agreement saying a defendant faced the
possibility of removal “did not purge prejudice, if
for no other reason than that they did not give
[the defendant] adequate notice regarding the
actual consequences of [the] plea.” United States
v. Rodriguez-Vega, 797 F.3d 781, 790 (9th Cir.
2015).

10
B. Allowing warnings from a judge or
prosecutor to substitute for the effective
assistance advice of counsel is not
compatible with the Constitution or this
Court’s precedent
The Sixth Amendment right to the assistance
of counsel is the right to the “effective assistance
of counsel.” Strickland, 466 U.S. at 686, quoting
McMann v. Richardson, 397 U.S. 759, 771, n.14
(1970).
The right to effective assistance of
counsel extends to all critical stages of a criminal
proceeding, including plea negotiations.
See
Lafler v. Cooper, 566 U.S. 156 (2012); Hill v.
Lockhart, 474 U.S. 52 (1985). When defense
counsel represents an immigrant in a criminal
prosecution, “preserving the client’s right to
remain in the United States may be more
important to the client than any potential jail
sentence.” INS v. St. Cyr, 533 U.S. 289, 322
(2001) (internal citations omitted).
The Immigration and Nationality Act (INA)
authorizes the government to deport noncitizens
who are convicted of certain crimes while in the
United States.
See 8 U.S.C. § 1227(a)(2).
Ordinarily, the Attorney General has discretion
to cancel the removal of a deportable noncitizen.
See 8 U.S.C. § 1229b. A noncitizen, however, is
ineligible for that discretionary relief if his
conviction is for one of a subset of crimes
classified as aggravated felonies. See 8 U.S.C. §
1229b(a)(3).
The result is so inevitable that courts have
routinely described deportation as a mandatory
consequence of a conviction for an aggravated
felony. See Lee v. United States, 137 S.Ct. 1958,

11
1963 (2017) (a noncitizen convicted of an
aggravated felony “is subject to mandatory
deportation”).
“It is thus only with some
hyperbole that qualifying as an aggravated felon
under the INA has been described as ‘the
immigration equivalent of the death penalty.’”
Shu Feng Xia v. United States, 2015 WL
4486233, at *5 (S.D.N.Y. July 20, 2015), quoting
R. McWhirter, ABA, The Criminal Lawyer’s
Guide to Immigration Law 146 (2d ed. 2006).
The mandatory nature of deportation in
Padilla led to the Court’s holding. Nonetheless,
the Second and Third Circuits have created a
situation where the effective assistance of
counsel can be replaced by equivocal warnings
pursuant to Fed. R. Crim. P. 11 and/or
boilerplate language in a plea agreement. This
Court should resolve the circuit split now and
avoid any further dilution of the right to counsel
as defined in Padilla and its progeny.

12
CONCLUSION
For the reasons set forth above, the Court
should grant this writ of certiorari.
Respectfully submitted,
V INOO P. V ARGHESE
Counsel of Record
V ARGHESE & A SSOCIATES , P.C.
2 Wall Street
New York, New York 10005
(212) 430-6469
info@vargheselaw.com
Attorneys for Petitioner
Nekebwe Superville
Dated: November 12, 2019

APPENDIX

1a
Appendix A
UNITED STATES DISTRICT COURT
E ASTERN D ISTRICT OF N EW Y ORK

__________
13-CR-302
17-cv-5856

__________
N EKEBWE S UPERVILLE ,
Petitioner,
—v.—
U NITED S TATES

OF

A MERICA ,

__________

Respondent.

MEMORANDUM AND ORDER
J A C K B. W E I N S T E I N , Senior United States
District Judge
Vinoo P. Varghese, Varghese & Associates,
65 Broadway, 7th floor, New York, NY 10006,
212-430-6469, Fax: 646-292-5169, Email:
info@vargheselaw.com, for Nekebwe Superville.
Marcia M. Henry, Tiana A. Demas, U.S. Attorney’s
Office, Eastern District Of New York, 271 Cadman
Plaza East, Brooklyn, NY 11201, 718-254-6393, Fax:
718-254-6076, Email: marcia.henry@usdoj.gov,
tiana.demas@usdoj.gov, for United States of
America.

080482 • VARGHESE • APPENDIX A

AL 11/5/19

2a
I.

Introduction

Three years after a guilty plea and sentencing,
Petitioner Nekebwe Superville moves for a writ of
habeas corpus or writ of error coram nobis, and to
vacate his conviction, claiming that his attorney
misled him about the immigration consequences of
his conviction. His application is denied on
substantive and procedural grounds.
Relying on recent precedent from the United States
Supreme Court, Superville argues that incorrect
advice from his attorney led him to believe that he
would probably not be deported if he pled guilty, and
that this advice induced him to plead guilty rather
than stand trial. Padilla v. Kentucky, 559 U.S. 356
(2010); Lee v. United States, 137 S.Ct. 1958 (2017).
The record and contemporaneous documentation does
not support this claim. Consistent with standard
practice, a magistrate judge and a district judge
warned Superville that he could face deportation if
he were to plead guilty. The mandatory nature of his
deportation appeared in the terms of his plea
agreement, which the court finds was read by him.
Even if Superville’s attorney advised him
incorrectly, the immigration consequences of his plea
were explained to him before he was sentenced on his
plea of guilty. About his guilt of the crimes he was
sentenced for, there is no doubt.
The court held an evidentiary hearing on this
motion. See Mot. Hearing Tr. (“Hr’g Tr.”), Feb. 14,
2018, Feb.16, 2018. Three witnesses testified:
Howard Greenberg, Superville’s former attorney,
Phillis Superville, the petitioner’s mother, and the
petitioner, Nekebwe Superville. Superville and
Greenberg gave conflicting accounts of the

080482 • VARGHESE • APPENDIX A

AL 11/5/19

3a
immigration advice that Superville received before
deciding to plead guilty.
The court does not credit Superville’s testimony in
light of the contemporaneous record. He did not
demonstrate that he would have stood trial rather
than plead guilty had he been more forcefully advised
of the serious risk of deportation he faced. The
evidence against him was overwhelming. If he was
found guilty—as he almost certainly would have
been—he faced a mandatory ten-year term of
imprisonment.
In reaching its conclusion, the court did not take
into account the change in Department of Justice
administration to increase deportation of criminals
that occurred long after Superville pled guilty and
the reality that this may have increased Superville’s
prospects of deportation after he was convicted. Both
counsel agreed this was appropriate. Hr’g Tr. 147:20148:11.
II. Facts
A. Background of Crime
On February 18, 2014, Superville pled guilty to one
count of conspiring to distribute 1,000 kilograms or
more of marijuana, in violation of 21 U.S.C. § 846
and § 841(b)(1)(A)(vii); and one count of conspiring to
the transfer and delivery of United States currency
involving the proceeds of narcotics trafficking, in
violation of 18 U.S.C. § 1956(h) and § 1956(a)(1)(B)(i).
See Feb. 18, 2014 Transcript (“Plea Tr.”), ECF No.
117.
In 2009, Superville began working for a drug
trafficking organization as a minor participant.
Presentence Investigative Report (“PSR”) at ¶¶ 8-9.

080482 • VARGHESE • APPENDIX A

AL 11/5/19

4a
He accepted a loan from one of the members of the
organization to start a business. Id. at ¶ 12. The
business failed and he was unable to repay his debts,
which led him to his taking a bigger role in drug
trafficking. Id.
His role in the drug conspiracy was significant.
One of Superville’s co-conspirators was arrested in
September 2010 and Superville partially took over
his role managing a FedEx account that the
organization used to ship marijuana. Id. at ¶¶ 13-19.
He traveled to Arizona several times in order to meet
with suppliers on behalf of the organization and to
facilitate its illegal activities. Id. Superville
continued working with the drug trafficking
organization for some years, taking a temporary
absence in 2011 after a dispute with one of his coconspirators. Id. He traveled to California in this
time in search of new sources of supply. Id. at ¶ 17.
In early 2013, federal agents tracked Superville’s
co-conspirator during a trip to Arizona and observed
him ship marijuana through FedEx. Id. at ¶¶ 20-21.
Superville was arrested on May 8, 2013 at his home
in Queens, New York and charged with intent to
distribute 1,000 kilograms of marijuana and
laundering $3,000,000 in drug proceeds. Id. at ¶¶ 28,
30.
Superville cooperated fully with the government
following his arrest. See 5k.1 Letter, ECF No. 219.
He testified at the trial of one of his co-conspirators,
with whom he shared a close relationship. Id. at 3.
The government wrote a 5k.1 letter for him, thus
avoiding the ten-year minimum.

080482 • VARGHESE • APPENDIX A

AL 11/5/19

5a
B. Immigration Advice
Superville retained a private defense attorney,
Howard Greenberg, to represent him in his criminal
case. Superville Aff. at ¶ 9, ECF No. 266, Ex. 7. He
retained private counsel because he is not a United
States citizen and feared deportation. Id. at ¶ 10.
According to an affirmation submitted prior to the
hearing, Superville asked Greenberg whether a
guilty plea would result in his deportation and
Greenberg told him that “it would be something
[they] would address if it came up later,” and that
Superville “should be ‘okay’ if [he] ‘kept [his] head
down’ and ‘stayed out of trouble.’” Id. at ¶ 13.
At the hearing, Superville testified that the
warning given by Greenberg was stronger than that
stated in his affirmation. Greenberg, Superville
testified, told him that he “wouldn’t get deported” if
he did not spend time in prison and stayed out of
future trouble. Hr’g. Tr. 97:2-22. This testimony is
not believed by the court. His attorney was highly
experienced and did not promise non-deportation. At
the least, Superville was informed that he was
eligible for deportation upon conviction.
Superville testified to having issues with
Greenberg’s representation apart from his
immigration advice. Superville thought that
Greenberg was “pushing [him] to cooperate”;
apparently, the first time they discussed cooperation
was after a court appearance with an Assistant
United States Attorney present. Id. 93:12-94:16.
Because of these concerns, Superville decided to meet
with another criminal defense attorney for a second
opinion on his case. Id. 103:5-14. Superville asked
this attorney about the immigration consequences of

080482 • VARGHESE • APPENDIX A

AL 11/5/19

6a
his case, and was counseled to seek the advice of an
immigration attorney. Id. 104:5-10, 139:7-140:15.
Superville took this advice and sought the opinion
of an immigration attorney. Id. He stated in his
affirmation:
As being deported was my greatest fear, I
went to an immigration attorney on my own
and met with my mother’s immigration
attorney, who she had retained to help file
her United States citizenship papers. He
told me that if I went to trial, got convicted,
and got jail, I would definitely be deported.
However, he said if I took a plea, I would
very likely not get deported if I didn’t go to
jail and then stayed out of future trouble.
Superville Aff. at ¶ 16. Superville claims he
recounted this advice to Greenberg, who “just
nodded” as he listened. Id. at ¶ 17. Greenberg
disputes hearing about the advice from Superville’s
immigration attorney. Hr’g Tr. 14:10-16.
Superville’s mother, Phillis Superville, in part
corroborated her son’s account. She testified that
while speaking to Greenberg before Superville’s bond
hearing he told her “not to worry about” immigration
consequences because he was an immigration
attorney as well. Hr’g. Tr. 72:15-20. They spoke about
immigration consequences at another time:
I was concerned about my son pleading
guilty, and how it would affect his
immigration status. And Mr. Greenberg said
to me that he needs to—once my son stays
out of trouble, he should be okay and told me
not to worry again. And he said all he has to
do is keep a low profile.

080482 • VARGHESE • APPENDIX A

AL 11/5/19

7a
Id. 73:16-23.
Howard Greenberg, Esq. told a different story.
Greenberg testified that he was retained by
Superville’s mother and immediately sought to get
Superville bailed out of jail. Hr’g. Tr. 5:8-13.
Superville was primarily concerned with getting out
of jail. Id. 7:13-19. About the immigration advice he
gave, Greenberg stated:
I told him that—I never told him he would
be deported as a result of the plea. I told him
that he could be deported as a result of the
plea. And I say that because nobody can
predict any such outcome. I told him that if
he was removed from the country, he might
not be allowed to return. And I told him if he
ever were able to return, he might well be
denied naturalization.
Id. 12:22-13-3. Greenberg also testified:
I told him if everything went the way we
prayed and hoped, it might go that the best
thing he can do is just live his life and keep
his head down. And he asked me, what do
you mean by keep my head down? And I
said, For God’s sake, don’t get re-arrested for
anything because I know that the
immigration folks are in the habit of sticking
their nose into the business of every new
arrestee wherever they are incarcerated and
try to determine what that person’s status is
in this country.
Id. 14:17-25.
Greenberg characterized Superville’s claim in his
affidavit as Greenberg having told him not to worry

080482 • VARGHESE • APPENDIX A

AL 11/5/19

8a
about deportation as a “bald-faced lie.” Id. 16:11-17.
He claims he told Superville that they could discuss
deportation if it ever arose, but this was in addition
to telling Superville that he could be deported for the
offense. Id. 16:18-18:4. Greenberg’s testimony on
these points suggests that Superville was in fact
misled. The statute effectively provides for
mandatory deportation because Superville pled
guilty to an aggravated felony. See 8 U.S.C. § 1228(c)
(“An alien convicted of an aggravated felony shall be
conclusively presumed to be deportable from the
United States.”); Lee v. United States, 137 S.Ct. 1958,
1963 (2017) (“A noncitizen convicted of [an aggravated
felony] is subject to mandatory deportation”). No
apparent defense to deportation based on a plea
existed.
C. Concern for Deportation
Superville had sound reason to fear deportation.
He had not been to Trinidad and Tobago, his country
of citizenship, since he was five years old. Superville
Aff. at ¶ 5. He has lived in the United States for the
entire time since he left Trinidad; his mother, fiancé,
and two daughters live in the United States. Id. at
¶¶ 5-7. He showed concern for his deportation by
deciding to seek the opinion of an independent
defense counsel and an immigration attorney. Hr’g
Tr. 99:16-18. “Avoiding deportation was the most
important part of [the criminal] process to
[Superville].” Superville Aff. at ¶ 22.
Superville says he “didn’t believe that the evidence
the government had against [him] was very strong,”
but his attorney “encouraged [him] to cooperate with
the government and plead guilty to the charges.”
Superville Aff. at ¶¶ 11-12; see also Hr’g Tr. 92:22-

080482 • VARGHESE • APPENDIX A

AL 11/5/19

9a
93:1. The case against him, in his opinion, was only
“flights and some tape recordings.” Id. 93:2-5. The
tape recordings consisted of conversations between
Superville and his co-conspirators discussing drug
trafficking. Id. 133:12-14. The government also
produced in discovery FedEx account records
showing drug shipments between members of the
conspiracy. Id. 133:21-23. The evidence of guilt was
in fact overwhelming.
Pleading guilty, Superville believed, was his “best
chance to remain in the United States” based on the
advice of his criminal attorney. Id. at ¶ 23. He stated
that if “there was a chance that [he] wouldn’t be
deported by going to trial, [he] would have taken it”;
“had [he] known that pleading guilty to these charges
would have automatically triggered [his] deportation,
[he] would have absolutely chosen to have gone to
trial instead of pleading guilty and cooperating with
the government.” Id. at ¶¶ 21-22.
Greenberg, however, described Superville’s
criminal case as “dead.” Hr’g Tr. 9:18-20. Based on
his experience as a criminal defense attorney, he
believed the evidence against Superville was
overwhelming. Id. 9:21-10:14. Superville and his
family were also threatened by one of Superville’s
codefendants in the case, and this was a significant
factor leading Superville to cooperate. Id. When
Greenberg first met with Superville “[h]is number
one concern, to the exclusion of everything else” was
to be released from jail. Id. 7:13-19.
D. Deportation Warnings
On February 18, 2014, Superville pled guilty and
signed a cooperation agreement. See Plea Tr. This
agreement contained the following paragraph

080482 • VARGHESE • APPENDIX A

AL 11/5/19

10a
outlining the immigration consequences of his guilty
plea:
The defendant recognizes that pleading
guilty may have consequences with respect
to the defendant’s immigration status if the
defendant is not a citizen of the United
States. Under federal law, a broad range of
crimes are removable offenses, including the
offenses to which the defendant is pleading
guilty. Indeed, because the defendant is
pleading guilty to 21 U.S.C. § 846 and 18
U.S.C. § 1956(h), removal is presumptively
mandatory. Removal and other immigration
consequences are the subject of a separate
proceeding, however, and the defendant
understands that no one, including the
defendant’s attorney or the District Court,
can predict with certainty the effect of the
defendant’s conviction on the defendant’s
immigration status. The defendant never theless affirms that the defendant wants to
plead guilty regardless of any immigration
consequences that the defendant’s plea may
entail, even if the consequence is the
defendant’s automatic removal from the
United States.
Cooperation Agreement ¶ 10 (emphasis supplied),
ECF No. 270, Ex. 3. At the plea hearing while under
oath, Superville acknowledged reading the
cooperation agreement thoroughly and discussing it
with his attorney. Plea Tr. 13:2-15.
Greenberg testified that he reviewed the entire
agreement with Superville, including the paragraph
about Superville’s immigration consequences, Hr’g

080482 • VARGHESE • APPENDIX A

AL 11/5/19

11a
Tr. 33:8-16; this testimony is credited as part of the
routine of any experienced practicing attorney.
Superville claims that he never read the
cooperation agreement. Id. 108:17-19. He testified
that Greenberg explained the agreement to him at a
high level, but that he did not explain the paragraph
that outlined the immigration consequences of his
plea. Id. 108:17-111:25. Superville signed the
agreement, but claimed that he did not read the line
directly above his signature affirming that he read
and understood the agreement. Id. 112:22-24. This
testimony of not reading the plea agreement is not
credited. Petitioner was intelligent and concerned
about the issue. His explanation about why he did
not read it was not persuasive. See Hr’g Tr. 130:21131:15.
Superville was advised by the magistrate judge at
his plea hearing that he would face immigration
consequences.
Magistrate Judge: And last, as I have
alluded to, if you are not a United States
citizen, a conviction for the charges that you
will be pleading guilty to carries heavy
immigration consequences. Are you a United
States citizen?
Superville: No.
Magistrate Judge: Now as a result of
pleading guilty, you could be subject to
removal from the United States and denied
citizenship and denied permission to be readmitted to the United States. Do you
understand?
Superville: Yes.

080482 • VARGHESE • APPENDIX A

AL 11/5/19

12a
Plea Tr. 21:10-21 (Emphasis supplied).
Several months later Superville appeared before
this court to be sentenced. Superville was again
advised of the fact that he might suffer immigration
consequences, including deportation, as a result of
his plea.
Court: Of what country are you a citizen?
Superville: Trinidad and Tobago.
Court: Do you understand that your plea in
this case may result in your deportation?
Superville: Yes.
Court: Have you explained the collateral
disabilities of a plea?
Defense Counsel:
everything.

We’ve

gone

over

Court: You understand how serious this is?
Superville: Yes.
Court: With respect to disabilities such as
licensing, schooling and the like?
Superville: Yes.
Court: Are you satisfied with your attorney?
Superville: Yes.
Sentencing Transcript (“Sentencing Tr.”) 3:19-4:10,
ECF No. 270, Ex. 6, Oct. 8, 2014 (emphasis supplied).
Superville agreed with the court that he had testified
at the trial of his codefendant and his testimony
indicated guilt. Id. 6:2-10. He reaffirmed that he
wished to plead guilty. Id.
Superville claims that he based his guilty plea on
the advice given to him by his criminal defense

080482 • VARGHESE • APPENDIX A

AL 11/5/19

13a
attorney despite the repeated warnings by the court.
Superville Aff. at ¶ 19. He claims to have only become
aware of the immigration consequences of his
conviction after immigration officers arrested him on
July 18, 2017 when he had only one month left on his
term of supervised release. Id. at ¶¶ 26, 29. He filed
this petition to vacate his conviction on October 5,
2017.
III. Law
Superville files this motion for a writ of habeas
corpus under 28 U.S.C. § 2255, or, alternatively, for a
writ of error coram nobis, to vacate his conviction on
the grounds that his counsel was constitutionally
ineffective.
A. Statute of Limitations Under 28 U.S.C.
§ 2255
The statute governing writs of habeas corpus
stemming from federal criminal proceedings, codified
at 28 U.S.C. § 2255, contains a one-year statute of
limitations. The limitations period runs from the
latest of:
(1) the date on which the judgment of conviction
becomes final;
(2) the date on which the impediment to making a
motion created by governmental action in
violation of the Constitution or laws of the
United States is removed, if the movant was
prevented from making a motion by such
governmental action;
(3) the date on which the right asserted was
initially recognized by the Supreme Court, if
that right has been newly recognized by the

080482 • VARGHESE • APPENDIX A

AL 11/5/19

14a
Supreme Court and made retroactively
applicable to cases on collateral review; or
(4) the date on which the facts supporting the
claim or claims presented could have been
discovered through the exercise of due diligence.
28 U.S.C. § 2255(f) (emphasis supplied). When no
appeal is taken, under subsection (1) a “judgment
becomes final when the time for filing a direct appeal
expires.” Moshier v. United States, 402 F.3d 116, 118
(2d Cir. 2005).
Superville filed this petition several years after the
time for appeal expired. He relies on subsection (4).
“Section 2255(4) is not a tolling provision . . . .
Rather, it resets the limitations period’s beginning
date, moving it from the time when the conviction
became final, see § 2255(1), to the later date on which
the particular claim accrued.” Wims v. United States,
225 F.3d 186, 190 (2d Cir. 2000). The relevant
inquiry is whether “a duly diligent person in
petitioner’s circumstances would have discovered”
the facts leading to the claim. Id.
Several district courts have considered the
applicability of this section when criminal defendants
claim that their convictions should be vacated
because they were not adequately informed of the
immigration consequences of a guilty plea. Most have
held that a duly diligent petitioner would discover an
ineffective claim if and when he was advised of
possible deportation during a plea colloquy. See, e.g.,
Salama v. United States, No. 05 CV 1257 (SJ), 2005
WL 1661830, at *4 (E.D.N.Y. July 15, 2005); United
States v. Deptula, No. 5:10-CR-82-6, 2016 WL
7985815, at *7 (D. Vt. Oct. 13, 2016), report and
recommendation adopted, No. 5:10-CR-82-6, 2017 WL

080482 • VARGHESE • APPENDIX A

AL 11/5/19

15a
384681 (D. Vt. Jan. 26, 2017); but see Bawaneh v.
United States, No. CR-04-1134 CAS, 2011 WL
1465775, at *4 (C D. Cal. Apr. 18, 2011).
B. Ineffective Assistance of Counsel
The Sixth Amendment guarantees the right to the
effective assistance of counsel. See Strickland v.
Washington, 466 U.S. 668, 686 (1984). Strickland
announced the now-familiar two-part test for
determining whether an attorney’s performance is
constitutionally adequate. To establish an ineffective
assistance of counsel claim, a petitioner must show
that (1) the attorney’s performance “fell below an
objective standard of reasonableness”; and (2) “there
is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Id. at 688, 694.
Two recent Supreme Court cases have addressed
both of Strickland’s prongs in the immigration
context. Padilla v. Kentucky spoke to the first prong
holding that “[t]he weight of prevailing professional
norms supports the view that counsel must advise
her client regarding the risk of deportation.” 559 U.S.
356, 367, 130 S.Ct. 1473, 176 L.Ed.2d 284 (2010). To
some individuals, “[preserving [their] right to remain
in the United States may be more important . . . than
any potential jail sentence.” Id. (quoting INS v. St.
Cyr, 533 U.S. 289, 323 (2001)). Although immigration
law can be complex, “when the deportation
consequence is truly clear, . . . the duty to give correct
advice is equally clear.” Id. at 369. Padilla left open
how the second prong of Strickland applies to cases of
this sort.
Last term, Lee v. United States, answered the
question of how the Strickland prejudice prong

080482 • VARGHESE • APPENDIX A

AL 11/5/19

16a
applies when a criminal defense attorney gives
incorrect immigration advice. 137 S. Ct. 1958 (2017).
In Lee, as in the instant case, the petitioner pled
guilty ostensibly relying on incorrect immigration
advice and had to show a “reasonable probability
that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to
trial.” Id. at 1965 (quoting Hill v. Lockhart, 474 U.S.
52, 59 (1985)). The Court declined to adopt a per se
rule “that a defendant with no viable defense cannot
show prejudice from the denial of his right to trial,”
because the proper focus of the inquiry is “on a
defendant’s decisionmaking, which may not turn
solely on the likelihood of conviction after trial.” Id.
at 1966.
Applying the law to the “unusual circumstances” of
Lee’s case, the Court concluded, “that Lee ha[d]
adequately demonstrated a reasonable probability
that he would have rejected the plea had he known
that it would lead to mandatory deportation.” Id. at
1967. Several factors supported the Court’s decision:
(1) both Lee and his attorney testified in a hearing on
the habeas petition that Lee would have faced trial
had he known that he would have been deported; (2)
Lee had strong family connections to the United
States where he had lived for three decades; (3) when
he was warned of potential immigration consequences
by the district judge, he responded “ ‘I don’t
understand,’ and turned to his attorney for advice ...
[and] [o]nly when Lee’s counsel assured him that the
judge’s statement was a ‘standard warning’ was Lee
willing to proceed to plead guilty.” Id. at 1968.
Based on these factors, the Court concluded:
We cannot agree that it would be irrational
for a defendant in Lee’s position to reject the

080482 • VARGHESE • APPENDIX A

AL 11/5/19

17a
plea offer in favor of trial. But for his
attorney’s incompetence, Lee would have
known that accepting the plea agreement
would certainly lead to deportation. Going to
trial? Almost certainly. If deportation were
the “determinative issue” for an individual
in plea discussions, as it was for Lee; if that
individual had strong connections to this
country and no other, as did Lee; and if the
consequences of taking a chance at trial
were not markedly harsher than pleading,
as in this case, that “almost” could make all
the difference. Balanced against holding on
to some chance of avoiding deportation was
a year or two more of prison time. Not
everyone in Lee’s position would make the
choice to reject the plea. But we cannot say
it would be irrational to do so.
Id. (emphasis in original).
The Supreme Court warned that courts “should not
upset a plea solely because of post hoc assertions
from a defendant about how he would have pleaded
but for his attorney’s deficiencies.” Id. at 1967.
“[C]ontemporaneous evidence to substantiate a
defendant’s expressed preferences” should instead be
the touchstone. Id. A lack of contemporaneous
evidence showing that the defendant would have
rejected a plea if he misunderstood the immigration
consequences of it is grounds for denying a motion
under the Strickland prejudice prong. See United
States v. Seepersad, 674 Fed.Appx. 69, 71 (2d Cir.
2017), cert. denied, No. 16-1445, 2017 WL 2444612
(U.S. Dec. 11, 2017) (denying a claim under
Strickland’s prejudice prong where “during the plea
colloquy the district court told [the defendant] his

080482 • VARGHESE • APPENDIX A

AL 11/5/19

18a
guilty plea would “provide the basis for the
Immigration and Naturalization Service to deport
you. You’ve got to understand that’” and the
defendant “twice indicated that he understood”).
C. Writ of Error Coram Nobis
A writ of error coram nobis may be “issued
pursuant to the All Writs Act, 28 U.S.C. § 1651(a),
where ‘extraordinary circumstances are present.’”
Foont v. United States, 93 F.3d 76, 78 (2d Cir. 1996)
(quoting Nicks v. United States, 955 F.2d 161, 167
(2d Cir.1992)). To qualify for the writ, a petitioner
“must demonstrate that 1) there are circumstances
compelling such action to achieve justice, 2) sound
reasons exist for failure to seek appropriate earlier
relief, and 3) the petitioner continues to suffer legal
consequences from his conviction that may be
remedied by granting of the writ.” Id. at 79 (internal
citations omitted).
“[I]neffective assistance of counsel is one ground
for granting a writ of coram nobis.” Kovacs v. United
States, 744 F.3d 44, 49 (2d Cir. 2014). Superville’s
request for this writ is based upon the ineffective
assistance of his trial counsel, and is governed by the
Strickland standard. See supra Section III(A).
Unlike the writ of habeas corpus, “[n]o statute of
limitations governs the filing of a coram nobis
petition.” Kovacs, 744 F.3d at 54. But, a petitioner
seeking the relief must “demonstrate ‘sound reasons’
for any delay in seeking relief.” Id.; cf. supra Section
III(A).

080482 • VARGHESE • APPENDIX A

AL 11/5/19

19a
IV. Application of Facts to Law
A. Statute of Limitations Under 28 U.S.C.
§ 2255
Superville’s habeas petition is barred by the
statute of limitations. His timeliness argument relies
on 28 U.S.C. § 2255(f)(4), which requires a petitioner
to file one year from “the date on which the facts
supporting the claim or claims presented could have
been discovered through the exercise of due
diligence.” Id. Even if Superville actually discovered
that he would be deported when he was detained by
immigration officers on July 18, 2017, Superville Aff.
at ¶¶ 26, 29, he could have, and would have, with
minimal diligence, discovered the high probability of
his deportation much earlier.
Superville’s cooperation agreement states in
relatively clear terms that he would almost certainly
be deported if he pled guilty. It states that his
deportation is “presumptively mandatory” and that
he “affirms that the [he] wants to plead guilty
regardless of any immigration consequences that
[his] plea may entail, even if the consequence is [his]
automatic removal from the United States”
Cooperation Agreement at ¶ 10 (emphasis supplied).
Even if Superville was relying on poor immigration
advice from his attorneys, this agreement should
have disabused him of his mistaken belief. Superville
claims that he did not read this agreement, but his
actual knowledge is not the relevant inquiry under
28 U.S.C. § 2255(f)(4). The effect of the word
“presumptively” was either known to him or he
should have asked to have it explained in view of his
concern about deportability.

080482 • VARGHESE • APPENDIX A

AL 11/5/19

20a
The magistrate judge, at his plea colloquy, and this
court, at his sentencing hearing, further advised
Superville that his guilty plea could lead to
deportation. The magistrate judge told Superville
that “a conviction for the charges that you will be
pleading guilty to carries heavy immigration
consequences.” Plea Tr. 21:10-21 (emphasis supplied).
This court at sentencing, before accepting his plea,
asked Superville whether he “underst[ood] that [his]
plea in this case may result in [his] deportation.”
Sentencing Tr. 3:19-4:10. He responded, “yes.” Id.
The only case this court is aware of to have reached
a different conclusion under similar circumstances is
Bawaneh v. United States, No. CR-04-1134 CAS,
2011 WL 1465775 (C.D. Cal. Apr. 18, 2011). This
non-binding case is distinguishable. There the court’s
deportation warning was highly equivocal—“it is at
least conceivable . . . that the guilty plea may lead to
immediate deportation proceedings”—and the
attorney’s advice was clear—“his attorney informed
him that even if he were deported, he would have a
strong argument at canceling the deportation.” Id. at
*4 (emphasis added). Superville, by contrast, was
given three objective warnings, two by the court and
one in his cooperation agreement. The number and
strength of the warnings he received would have
caused a duly diligent person to make a further
inquiry into the possibility of deportation. In fact, he
consulted two other attorneys on this point before his
guilty plea.
Because Superville could have discovered his claim
at the latest at his sentencing in October 2014 and
his petition is brought more than a year after that
time, it is untimely.

080482 • VARGHESE • APPENDIX A

AL 11/5/19

21a
B. Ineffective Assistance of Counsel
The court takes no position on whether the advice
given by Superville’s criminal defense attorney,
Howard Greenberg, falls below an objective standard
of reasonableness. Superville cannot claim prejudice
under the second prong of Strickland. He cannot
show a “reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would
have insisted on going to trial.” Lee v. United States,
137 S. Ct. 1958, 1965 (2017).
The court does not credit several aspects of
Superville’s testimony. See supra Part II. The
contemporaneous evidence leads this court to
conclude that he did in fact know that there was a
strong possibility of deportation when he pled guilty
and that he cannot show that a stronger warning
would have led him to stand trial. Even if the court
credited the entirety of Superville’s testimony, the
result would remain unchanged.
Two judges informed Superville that his conviction
would carry immigration consequences. See supra
Section IV(A). Both times he affirmed under oath
that he understood this. It is this court’s invariable
practice, and the practice of magistrates in this
district, to inform criminal defendants when pleading
guilty that they could face deportation if they are not
citizens. If this warning is to have meaning, courts
must be able to rely on the fact that defendants take
this warning seriously, and speak truthfully under
oath when they acknowledge that they understand
the immigration consequences of their plea.
That is not to say that these warnings will be
sufficient in all cases. In Lee, for example, the
defendant received a warning from the district court

080482 • VARGHESE • APPENDIX A

AL 11/5/19

22a
prior to it accepting his plea. Upon receiving this
warning, he responded “‘I don’t understand,’ and
turned to his attorney for advice . . . [and] [o]nly when
Lee’s counsel assured him that the judge’s statement
was a ‘standard warning’ was Lee willing to proceed
to plead guilty.” Id. at 1968. Contemporaneous
evidence showing that the defendant did not
understand the warning or was misled is necessary
in most cases. Id. at 1967 (“Courts should not upset a
plea solely because of post hoc assertions from a
defendant about how he would have pleaded but for
his attorney’s deficiencies.”); cf. Kovacs v. United
States, 744 F.3d 44, 53 (2d Cir. 2014) (“It is apparent
from the transcript of the Rule 11 hearing that
Kovacs’ single-minded focus in the plea negotiations
was the risk of immigration consequences.”).
In the instant case, there is no contemporaneous
evidence that Superville did not understand that he
was likely to face deportation. Unlike the petitioner
in Lee, Superville affirmed under oath that he did
understand consequences—without equivocation.
The last time that Superville claims to have spoken
to his attorney about immigration consequences is a
few weeks before the plea hearing. Three times after
that he learned that he could in fact be deported.
Superville was facing a ten-year mandatory
minimum sentence if he did not cooperate with the
government and had been threatened by a
codefendant. It is undisputed that Superville
understood that he “could” be deported as a result of
his guilty plea. Hr’g Tr. 134:20-23. While the extent
of his understanding is not clear, that he did not
hesitate to plead guilty after receiving judicial
warnings significantly undercuts his claim that he
would have stood trial rather than plead guilty and

080482 • VARGHESE • APPENDIX A

AL 11/5/19

23a
face a ten-year mandatory minimum and
deportation. In Lee, by contrast, the Supreme Court
characterized Lee’s “consequences of taking a chance
at trial [as] not markedly harsher than pleading”
because it was only a “year or two more of prison
time”; not a decade. Id. at 1968.
The court also notes, without deciding as an
independent ground for denying the motion, that
there is a significant causation issue in this case.
Superville was separately advised, apparently
incorrectly, by an attorney specializing in
immigration law. To the extent that he relied on this
advice, it undercuts his argument that it was
Greenberg’s advice that induced him to plead guilty.
It does not seem that the conduct of an attorney who
has no role in the criminal case, under such
circumstances that exist in this case, is cognizable
under the Strickland standard.
Superville cannot show a “reasonable probability
that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to
trial.” Lee v. United States, 137 S. Ct. 1958, 1965
(2017).
C. Writ of Error Coram Nobis
Because Superville cannot show that he was
constitutionally deprived of the effective assistance of
counsel, the writ of error coram nobis is denied.
Superville cannot demonstrate sound reason for his
delay in bringing this petition. See supra Section
IV(A).

080482 • VARGHESE • APPENDIX A

AL 11/5/19

24a
V. Conclusion
Superville’s motion for a writ of habeas corpus or a
writ of error coram nobis and to set aside his
conviction is denied.
The court has changed the warning that it gives to
non-citizen criminal defendants in a case such as this
to “you should assume that you will be deported after
conviction by plea or trial.”
Superville shall remain in the United States until
he has fully exhausted his right to appeal this order.
SO ORDERED.
/s/
Jack B. Weinstein
Senior United States District Judge
Date: February 27, 2018
Brooklyn, New York

080482 • VARGHESE • APPENDIX A

AL 11/5/19

25a
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT
SUMMARY ORDER
RULINGS

BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER J ANUARY 1, 2007, IS
PERMITTED AND IS GOVERNED BY F EDERAL
RULE OF APPELLATE PROCEDURE 32.1 AND
THIS COURT ’ S L OCAL R ULE 32.1.1. W HEN
CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT , A PARTY MUST CITE
EITHER
THE
FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE ( WITH THE NOTATION
“SUMMARY ORDER ”). A PARTY CITING A
SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL .

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 9th
day of May, two thousand nineteen.
PRESENT: AMALYA L. KEARSE,
RICHARD C. WESLEY,
DENNY CHIN,
Circuit Judges.

__________
18-680-pr

__________

080482 • VARGHESE • APPENDIX B

AL 11/5/19

26a
N EKEBWE S UPERVILLE ,
Petitioner-Appellant,
—v.—
U NITED S TATES

OF

A MERICA ,

Respondent-Appellee.

__________
FOR PETITIONER-APPELLANT: VINOO P.
VARGHESE, Varghese & Associates, P.C., New
York, New York.
FOR RESPONDENT-APPELLEE: MARCIA M.
HENRY, Assistant United States Attorney (Amy
Busa, Assistant United States Attorney, on the
brief), for Richard P. Donoghue, United States
Attorney for the Eastern District of New York,
New York, New York.
Appeal from the United States Court for the
Eastern District of New York (Weinstein, J.)
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the order of the district court is
AFFIRMED.
Petitioner-appellant Nekebwe Superville appeals
pursuant to a certificate of appealability issued
March 6, 2018, by the United States District Court
for the Eastern District of New York (Weinstein, J.).
The certificate of appealability certified two issues for
appeal: (1) “[w]hether petitioner was denied the
effective assistance of counsel under the Sixth
Amendment”; and (2) “[w]hether petitioner’s
constitutional claim was timely under 28 U.S.C. §

080482 • VARGHESE • APPENDIX B

AL 11/5/19

27a
2255.” App’x at 360. We assume the parties’
familiarity with the underlying facts, procedural
history, and issues on appeal.
Superville is not a United States citizen. In May
2013, he was arrested for participating in a drug
trafficking organization. He retained attorney
Howard Greenberg and agreed to cooperate with the
government. Before pleading guilty, Superville
received warnings in the plea agreement and from
the magistrate judge and district judge that his
conviction would have immigration consequences. It
is “undisputed that Superville understood that he
‘could’ be deported as a result of his guilty plea.” S.
App’x at 10. On February 18, 2014, Superville pled
guilty to two aggravated felonies: one count of
conspiring to distribute 1,000 kilograms or more of
marijuana, in violation of 21 U.S.C. §§ 846 and
841(b)(1)(A)(vii), and one count of conspiring to
transfer and deliver United States currency involving
the proceeds of narcotics trafficking, in violation of 18
U.S.C. §§ 1956(h) and 1956(a)(1)(B)(i). Because of his
assistance to the government, Superville was
sentenced principally to three years’ probation.
Judgment was entered on November 14, 2014.
On July 18, 2017, Superville was detained by
immigration officers pursuant to a Department of
Homeland Security notice to appear for removal
proceedings. On October 5, 2017, Superville,
represented by new counsel, filed a motion under 28
U.S.C. § 2255, or for a writ of error coram nobis, to
vacate his guilty plea and conviction, arguing that
Greenberg’s performance was constitutionally
ineffective by failing to advise him that his plea
subjected him to mandatory deportation.

080482 • VARGHESE • APPENDIX B

AL 11/5/19

28a
The district court held an evidentiary hearing on
February 14 and 16, 2018, and three witnesses
testified: Superville, Superville’s mother, and
Greenberg. In its February 27, 2018 memorandum
and order, the district court rejected several parts of
Superville’s testimony because it conflicted with the
contemporaneous evidence that he knew there was a
strong possibility of deportation and he still would
have pled guilty even with a stronger warning.
Greenberg testified that he told Superville that he
“could be deported as a result of the plea,” but
disavowed telling Superville not to worry about
deportation. The district court denied Superville’s
motion because it was untimely and, in the
alternative, Superville was not prejudiced by his
attorney’s alleged ineffectiveness. On March 6, 2018,
the district court issued its certificate of
appealability. Superville filed a timely notice of
appeal on March 9, 2018.
STANDARD OF REVIEW
“We review a district court’s findings of fact for
clear error, and its denial of a Section 2255 petition
de novo.” Elfgeeh v. United States, 681 F.3d 89, 91
(2d Cir. 2012). “[A] finding is ‘clearly erroneous’ when
although there is evidence to support it, the
reviewing court on the entire evidence is left with the
definite and firm conviction that a mistake has been
committed.” Anderson v. City of Bessemer City, 470
U.S. 564, 573 (1985) (internal quotation marks
omitted). “If the district court’s account of the
evidence is plausible in light of the record viewed in
its entirety, [we] may not reverse it” even if we would
have weighed the evidence differently. Id. at 573-74.

080482 • VARGHESE • APPENDIX B

AL 11/5/19

29a
DISCUSSION
As certified by the district court, two issues are
presented: (1) “[w]hether petitioner’s constitutional
claim was timely under 28 U.S.C. § 2255”; and (2)
“[w]hether petitioner was denied the effective
assistance of counsel under the Sixth Amendment of
the United States Constitution.” S. App’x at 13.
I.

Timeliness of Superville’s § 2255 Petition

A § 2255 petition is subject to a one-year period of
limitation, which runs from the later of “the date on
which the judgment of conviction becomes final” or
“the date on which the facts supporting the claim or
claims presented could have been discovered through
the exercise of due diligence.” 28 U.S.C. § 2255(f)(1),
(4). For the purposes of § 2255(f)(1), “an unappealed
federal criminal judgment becomes final when the
time for filing a direct appeal expires.” Moshier v.
United States, 402 F.3d 116, 118 (2d Cir. 2005) (per
curiam). Section 2255(f)(4), moreover, “is not a tolling
provision that extends the length of the available
filing time”; rather, § 2255(f)(4) “resets the
limitations period’s beginning date, moving it from
the time when the conviction became final [under §
2255(f)(1)] ... to the later date on which the particular
claim accrued.” Wims v. United States, 225 F.3d 186,
190 (2d Cir. 2000). The relevant inquiry is “when a
duly diligent person in petitioner’s circumstances
would have discovered [facts supporting the claim].”
Id. This “does not require the maximum feasible
diligence, only ‘due,’ or reasonable, diligence.” Id. at
190 n.4. The question of when the limitations period
begins to run is a fact-specific issue, see id. at 190,
and therefore we review the district court’s

080482 • VARGHESE • APPENDIX B

AL 11/5/19

30a
determination for clear error, see Elfgeeh, 681 F.3d at
91.
Here, the limitations period began to run from the
date the judgment of conviction became final. Under
§ 2255(f)(1), the judgment became final on November
28, 2014, fourteen days after it was entered on
November 14, 2014, as Superville did not appeal. See
Fed. R. App. P. (4)(b) (requiring appeal in criminal
case to be filed within fourteen days of judgment).
Although the district court found that Superville
could have discovered that he was subject to
mandatory deportation no later than October 8, 2014,
based in part on the court’s statements in imposing
sentence that day, the one-year limitations period
began to run on November 28, 2014 — the later of
the two dates — and Superville’s § 2255 motion was
time-barred because he did not file his motion until
October 5, 2017.
Superville argues that under § 2255(f)(4) the
limitations period actually began to run on July 18,
2017, when he was arrested by immigration officers
and first learned he was subject to mandatory
deportation, and therefore his motion is timely. The
district court’s finding that Superville’s could, with
due diligence, have discovered his deportation status
in October 2014 at the latest, however, is supported
by the record. Superville received at least three
warnings about his plea’s immigration consequences,
including in the plea agreement he signed in
February 2014 acknowledging that “because [of the
offenses to which] the defendant is pleading guilty ...
removal is presumptively mandatory.” App’x at 48.
Superville stated under oath that he read it
thoroughly and discussed it with his attorney, and he
told both the magistrate and district judges that he

080482 • VARGHESE • APPENDIX B

AL 11/5/19

31a
understood the immigration consequences of his
guilty plea. Based on these warnings, a reasonably
diligent person would have discovered that he was
subject to presumptively mandatory deportation in
October 2014. Therefore, on this record, the district
court did not err in finding that Superville could,
with due diligence, have discovered that he was
subject to mandatory deportation prior to November
2014, and in concluding that his § 2255 petition was
time-barred.
II. Ineffective Assistance of Counsel
Even if the § 2255 petition had been timely filed, it
would fail on the merits. The Sixth Amendment
grants criminal defendants the right to the effective
assistance of counsel. Strickland v. Washington, 466
U.S. 668, 686 (1984). In general, a defendant
claiming ineffective assistance must show that (1)
“counsel’s performance was deficient” and (2) “the
deficient performance prejudiced the defense.” Id. at
687. When a defendant alleges that a counsel’s
deficient performance led him to accept a guilty plea
rather than go to trial, we “consider whether the
defendant was prejudiced by the denial of the entire
judicial proceeding to which he had a right.” Jae Lee
v. United States, 137 S.Ct. 1958, 1965 (2017)
(alteration and internal quotation marks omitted). To
demonstrate prejudice, then, “the defendant must
show that there is a reasonable probability that, but
for counsel’s errors, he would not have pleaded guilty
and would have insisted on going to trial.” Hill v.
Lockhart, 474 U.S. 52, 59 (1985); accord Kovacs v.
United States, 744 F.3d 44, 52 (2d Cir. 2014).
The district court did not reach the question of
whether counsel’s advice that Superville “could” be

080482 • VARGHESE • APPENDIX B

AL 11/5/19

32a
deported was unreasonable, but held that even
assuming Greenberg was ineffective (by saying
“could” rather than “would”), Superville had failed to
show prejudice. The court found that Superville
failed to show “that a stronger warning would have
led him to stand trial.” S. App’x at 10. This finding
was not clearly erroneous, particularly in light of the
three other warnings Superville received, including
one in the plea agreement, which he read and signed,
that “removal is presumptively mandatory.” App’x at
48. Much of the evidence that Superville relies on are
post hoc assertions, and we will “not upset a plea
solely because of post hoc assertions” about how a
petitioner “would have pleaded but for his attorney’s
deficiencies.” Jae Lee, 137 S.Ct. at 1967. The district
court did not credit this aspect of Superville’s
testimony, and “clear error review mandates that we
defer to the district court’s factual findings,
particularly those involving credibility determinations.” Phoenix Glob. Ventures, LLC v. Phoenix Hotel
Assocs., Ltd., 422 F.3d 72, 76 (2d Cir. 2005) (per
curiam). The district court, therefore, did not err in
holding that Superville failed to show he was
prejudiced by Greenberg’s alleged ineffectiveness.
***
We have considered Superville’s remaining
arguments and conclude they are without merit.
Accordingly, we AFFIRM.
FOR THE COURT:
/s/
Catherine O’Hagan Wolfe, Clerk
[SEAL]

080482 • VARGHESE • APPENDIX B

AL 11/5/19

33a
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 15th
day of August, two thousand nineteen.

__________
Docket No: 18-680

__________
N EKEBWE S UPERVILLE ,
Petitioner-Appellant,
—v.—
U NITED S TATES

OF

A MERICA ,

Respondent-Appellee.

__________
ORDER
Appellant, Nekebwe Superville, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.

080482 • VARGHESE • APPENDIX C

AL 11/5/19

34a
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
/s/
Catherine O’Hagan Wolfe, Clerk
[SEAL]

080482 • VARGHESE • APPENDIX C

AL 11/5/19

